                        SENSITIVE BUT UNCLASSIFIED



            United States Department of State
         And the Broadcasting Board of Governors
                Office of Inspector General




                             Inspection of

   The Bureau of Consular Affairs,
   Office of Consular Systems and
             Technology

               Report Number ISP-I-11-51, May 2011




                                  IMPORTANT NOTICE

This is intended solely for the official use of the U.S. Department of State or the Broadcasting
Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside of the
Department of State or the Broadcasting Board of Governors, by them or by other agencies or
organizations, without prior authorization by the Inspector General. Public availability of the
document will be determined by the Inspector General under the U.S. Code, 5 U.S.C. 552.
Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                        SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED





                    PURPOSE, SCOPE, AND METHODOLOGY

                           OF THE INSPECTION


This inspection was conducted in accordance with the Quality Standards for Inspections, as
issued by the President’s Council on Integrity and Efficiency, and the Inspector’s Handbook, as
issued by the Office of Inspector General for the U.S. Department of State (Department) and the
Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

       •   Policy Implementation: whether policy goals and objectives are being effectively
           achieved; whether U.S. interests are being accurately and effectively represented; and
           whether all elements of an office or mission are being adequately coordinated.

       •   Resource Management: whether resources are being used and managed with
           maximum efficiency, effectiveness, and economy and whether financial transactions
           and accounts are properly conducted, maintained, and reported.

       •   Management Controls: whether the administration of activities and operations meets
           the requirements of applicable laws and regulations; whether internal management
           controls have been instituted to ensure quality of performance and reduce the
           likelihood of mismanagement; whether instance of fraud, waste, or abuse exist; and
           whether adequate steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                           SENSITIVE BUT UNCLASSIFIED

                          SENSITIVE BUT UNCLASSIFIED





                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                             Harold W. Geisel
                                             Deputy Inspector General




                          SENSITIVE BUT UNCLASSIFIED

                               SENSITIVE BUT UNCLASSIFIED





                                                              iii

OIG Report No. ISP-I-11-51 – Inspection of the Bureau of Consular Affairs, Office of Consular Systems and Technology – May 2011


                               SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

                                              Table of Contents

Key Judgments                                                                                                                         1

Context                                                                                                                               3

Executive Direction                                                                                                                   5

   Leadership                                                                                                                         5

   Morale                                                                                                                             5

   Vacant Deputy Position                                                                                                             6

   Management Support Unit                                                                                                            7

   Rightsizing                                                                                                                        8

Communication and Coordination                                                                                                        9

   Bureau of Consular Affairs                                                                                                         9

   Configuration Change Request Process                                                                                              10

Policy and Program Implementation                                                                                                    13

   Organization                                                                                                                      13

Information Technology Issues                                                                                                        21

   Oversight of the Consolidated Consular Database                                                                                   21

   Systems Development Life Cycle Process                                                                                            23

   Bureau of Information Resource Management                                                                                         25

Resource Management                                                                                                                  27

   Contracts and Procurement                                                                                                         27

   Budget                                                                                                                            29

   Inventory                                                                                                                         29

   Equal Employment Opportunity                                                                                                      30

Management Controls                                                                                                                  31

   Access Controls                                                                                                                   31

   Contracts                                                                                                                         31

   Security                                                                                                                          32

List of Recommendations                                                                                                              33

Informal Recommendations                                                                                                             37

Principal Officials                                                                                                                  39

Abbreviations                                                                                                                        41

Appendix 1: CST Organizational Chart                                                                                                 43

Appendix 2: CST Divisions – Summary of Roles and Responsibilities                                                                    45





                                                                 iv

   OIG Report No. ISP-I-11-51 – Inspection of the Bureau of Consular Affairs, Office of Consular Systems and Technology – May 2011


                                  SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED





                                                              v

OIG Report No. ISP-I-11-51 – Inspection of the Bureau of Consular Affairs, Office of Consular Systems and Technology – May 2011


                               SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


Key Judgments

•	 The Office of Consular Systems and Technology (CST) succeeds in its mission of supporting
   consular operations around the world, enabling the Bureau of Consular Affairs (CA) in 2010
   to issue 13.8 million passports and 6.4 million visitor visas, respond to crises in Haiti and
   elsewhere, and protect the millions of Americans traveling abroad. However, there are areas
   that require attention.

•	 The director has a clear, well-articulated vision for his office as an exemplar of information
   management in the Federal Government. He deserves credit for his accomplishments and
   leadership role. His larger-than-life persona dominates the office. Although the director
   possesses strong technical skills and a fierce determination to achieve his goals, his
   managerial approach has created tension within CST and friction with other bureau and
   Department of State (Department) offices. Now that CA leadership has weighed in and the
   Department’s Civil Service ombudsman has begun a dialogue with CST, tension levels have
   eased; however, there is need for continued effort in and oversight of this matter.

•	 The current CST leadership structure is too centered on the office director and needs a
   durable institutional framework. Moreover, internal communication is lacking. To address
   these issues, CST must promptly fill the long-vacant deputy position; revitalize and recast the
   Program Management Office (PMO) and the Liaison Division (LD) so that they may play
   their essential coordination and communication roles; and establish a management support
   unit.

•	 The Consular Consolidated Database (CCD) is central to all consular operations and is an
   important element of U.S. national security systems. Although CST provides outstanding
   critical consular data delivery to the Department and other Federal agencies, (b) (5)



•	 Communication between CST and other parts of CA is uneven. CA needs to revitalize the
   information technology strategy committee (ITSC) and hold operational-level meetings in
   order to be more proactive in establishing information technology (IT) policy and prioritizing
   CST’s development efforts. CA business units need to establish subunits to focus on IT
   requirements and to act as first points of clearance for a revised configuration change request
   (CCR) process.

•	 The Global Visa System (GVS) development program is, to date, a successful model for new
   product development and cooperation between CA’s business units and CST. It should be
   used in Global Citizen System (GCS) development. In the meantime, however, the
   maintenance of and support for legacy systems are critical to CA’s continuing operational
   needs.
                                                                 1

   OIG Report No. ISP-I-11-51 – Inspection of the Bureau of Consular Affairs, Office of Consular Systems and Technology – May 2011


                                  SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


•	 CST’s training program is strong and successfully supports the deployment and ongoing
   improvement of consular systems in the field. However, CST needs to capitalize on its
   personnel with field experience by assigning Foreign Service officers to positions within its
   development and operations divisions.

•	 The systems development life cycle (SDLC) process should define project management
   phases from beginning to end. Because the SDLC is not standardized or enforced, some
   projects are not meeting intended business and systems requirements.

•	 Contract oversight is a major function of CST. The director takes great personal interest in
   this area, but contracting officer representatives (COR) vary in the effectiveness of their
   oversight. CST needs to ensure that all CORs are correctly trained and designated. CST also
   needs to carefully follow procedures for modifying existing contracts and task orders and to
   establish a procedure for periodic independent audits of CST contracts. To assist in this
   effort, CA has authorized 19 new positions for CST. The OIG team acknowledges the need
   for additional personnel but with the caveat that these increases be implemented within the
   context of a plan that reevaluates CST’s current organizational structure and is based on a
   strategic assessment of the office’s future needs.

•	 Access controls for assigning and tracking user accounts in various critical systems in CST
   need to be strengthened.




The inspection took place in Washington, DC, between January 18 and March 4, 2011.
(b) (6)



                                                                  2

    OIG Report No. ISP-I-11-51 – Inspection of the Bureau of Consular Affairs, Office of Consular Systems and Technology – May 2011


                                   SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


Context 

       CST succeeds in a very daunting mission. Every aspect of modern consular work depends
on automated consular systems. CST systems in FY 2010 enabled CA to issue 13.8 million
passports and 6.4 million visitor visas, respond to crises in Haiti and elsewhere, and protect the
millions of Americans traveling abroad. The office maintains the CCD, a critical operational and
national security database, which contains over 137 million American and foreign case records
and over 130 million photographs and is growing at approximately 40,000 visa and passport
cases every day. Serving 11,000 users in the Department and more than 19,000 users in other
agencies, primarily the Department of Homeland Security (DHS) and various law enforcement
elements, it is accessed more than 120 million times every month.

        To carry out its mandate, CST must provide uninterrupted support to 233 overseas posts,
21 passport agencies, 2 passport processing centers, and other domestic facilities, for a total of
30,000 end users across 16 Federal agencies and in nearly every country. CST faces 24/7/365
service requirements, as any disruption in automated support brings operations to an immediate
halt, with very serious implications for travelers and the U.S. image.

       CST is led by a director and is staffed by 68 full-time equivalent (FTE) employees (62
Civil Service and 6 Foreign Service). There are 12 positions (3 Foreign Service and 9 Civil
Service) currently vacant. CA recently authorized CST 19 additional FTE positions. There are
also more than 850 contractors operating under nearly 30 different contracts. In FY 2010, CST’s
annual operating budget was approximately $266 million. Supported by machine readable visa
fees, CST has been able to respond quickly to changing security requirements and congressional
mandates.

        CST has been and continues to be a leader in automation within the Department. Many
systems and processes later adopted as general Department standards were initially piloted by
CST or its predecessor, the Consular Systems Division. In recent years, CST has deployed
systems to perform real-time fingerprint and facial recognition checks on every visa applicant.
The office also implemented a Web-based visa application process and has enhanced the security
of U.S. passports and consular reports of birth abroad (CRBA). CST is now working on the next
generation of consular automated systems, GVS and GCS, to integrate multiple older
applications and to take full advantage of current IT capabilities. CST has steadily grown from a
small, in-house support shop to a major technology player in the Federal Government.




                                                                  3

    OIG Report No. ISP-I-11-51 – Inspection of the Bureau of Consular Affairs, Office of Consular Systems and Technology – May 2011


                                   SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED





                                                              4

OIG Report No. ISP-I-11-51 – Inspection of the Bureau of Consular Affairs, Office of Consular Systems and Technology – May 2011


                               SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


Executive Direction
Leadership

        The CST director was recruited directly from private industry in June 2007. With his
larger-than-life persona, he has had a dramatic impact on CST. The director has a clear, well-
articulated vision of CST’s future that entails transforming it into an exemplary cutting-edge IT
operation within the Federal Government. He is in the process of realizing this vision. Possessing
strong technical skills, a driving personality, and a fierce determination to achieve his goals, he
deserves much of the credit for CST’s recent accomplishments. The Bureau Assistant Secretary
and his supervisor, the principal deputy assistant secretary, support him and have signed on to his
vision for CST and its IT strategy for supporting bureau stakeholders.

        The director has instilled his sense of mission in many of his CST staff members, who
generally, but not universally, respect his intellectual and technical skills. He takes pride in his
commitment to broadening the professional skills of his technical staff. He dominates the office
by his force of personality and rules with a blunt, no-nonsense, top-down managerial style that is
punctuated by sporadic emotional public outbursts, often directed against individual staff
members, as well as tirades occasioned by bureaucratic encounters with other CA and
Department offices. At times, he has issued diktats to members of staff, prohibiting or restricting
their contact with other entities in the Department (in one instance, the Visa Office came under
his interdict). Whatever the efficacy of these prohibitions, they have constrained CST’s
relationships within CA and have created an atmosphere in which some of CA’s other offices
and some bureaus try to avoid personal encounters with the director. Unsurprisingly,
communication and coordination with CST are often described as difficult and frustrating
experiences. On the other hand, relations with other agencies, such as DHS, the Federal Bureau
of Investigation, and the Social Security Administration, appear excellent. The director and the
office are also well respected in the broader IT community.

Morale

       Morale in CST can best be described as mixed. Some of the CST staff view the director’s
management of the office as stimulating and challenging; others resent it. Even those who
admire the director’s leadership and accomplishments most, view his emotional outbursts as
embarrassing and inappropriate. Issues relating to the director’s management style, particularly
his penchant for public emotional outbursts, came to a head in September and October 2010,
when the Assistant Secretary and principal deputy assistant secretary reacted to reports of yet
another angry eruption directed against individual employees at a CST meeting.

        As a result, the Office of the Ombudsman established an ongoing dialogue with CST. A
senior CA official also provided firm written guidance to the director on the need to curb his
emotions and work on anger management. In the ensuing 4 months and through the OIG
inspection, staff members confirmed that, although not perfect, the atmosphere had improved,
with a perceptible easing of emotional tension within the office. Staff members expressed relief
                                                5

    OIG Report No. ISP-I-11-51 – Inspection of the Bureau of Consular Affairs, Office of Consular Systems and Technology – May 2011


                                   SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


and hope that the improvement in the atmosphere would persist beyond the presence of the OIG
inspection team.

       In discussions with the CST director and the CA front office, the OIG team has stressed
the need to build on the present progress and has identified the following areas for improvement:

              •	 Development of better personal interrelationships within CST and with peers in
                 the bureau.

              •	 Development of better downward communication and delegation of authority
                 within CST.

              •	 Use of the CA’s “Consular Leadership Tenets” as a guide and template for
                 improving leadership performance.

Recommendation 1: The Bureau of Consular Affairs should design and implement a plan to
monitor, on a continuing basis, the work environment in the Office of Consular Systems and
Technology and take corrective action as necessary. (Action: CA)

Recommendation 2: The Bureau of Consular Affairs should hold quarterly performance
reviews with the director of the Office of Consular Systems and Technology, using the bureau’s
Consular Leadership Tenets as a template. (Action: CA)

        The OIG team also stressed the need to strengthen the institutional structure of the office
as a counter to the current personalized focus on the office director. Recommendations to this
effect are found throughout the report.

Vacant Deputy Position

        The CST deputy director position has been vacant since the Foreign Service incumbent
left more than18 months ago. CST changed the job designation from Foreign Service to Civil
Service and also upgraded the required IT qualifications so that it could recruit a candidate with
the technical and other qualifications needed to one day succeed the deputy director. The CA
front office supported this approach.

        Subsequently, from October 2009 until December 2010, the GS-15 deputy director
position has been posted four times, each time with two certificates (all sources and government
wide). None of the numerous applicants have made the cut. CST screeners are becoming
increasingly convinced that no likely candidate at the GS-15 level will meet the current
requirements. They believe that the position would have to be designated at the Senior Executive
Service job level to attract any successful bidders; however, the CA front office has ruled out
that option. CST is left with two options: either continue on its present course without prospect
of any near-term success or revise the position qualifications to put less emphasis on a high level
of IT competence.
                                                                  6

    OIG Report No. ISP-I-11-51 – Inspection of the Bureau of Consular Affairs, Office of Consular Systems and Technology – May 2011


                                   SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


       The OIG team believes the vacant deputy position must be filled promptly. After such a
long gap, the office is badly in need of a deputy to pull together the disparate management
threads; serve as a buffer/conduit for the director in running the office; and give CST an officer
with sufficient seniority to deal at the operational level with the CA stakeholder directorates. A
functioning deputy would also help the office move from the present leadership structure to a
more regularized, institutional framework. Consequently, the OIG team is in favor of changing
the focus of the position to emphasize managerial and operation skills. However, if CST and the
CA front office wish to persist in the current search for a candidate with strong IT skills, it would
be advisable to select an interim deputy director to fill the position in the meantime. CA may also
consider broadening any search for an interim deputy by including, as a possible stop gap, senior
Foreign Service officers (FSO) with executive experience.

Recommendation 3: The Bureau of Consular Affairs should promptly fill the deputy director
position in the Office of Consular Systems and Technology. (Action: CA)

Management Support Unit

        CST does not have a structured management support system that is sufficient for its
needs. Three full-time contract employees provide support for the director, handling
administrative tasks such as travel, scheduling, and other activities. One contract employee
serves as the director’s special assistant. However, there is no centralized focus for significant
cross-cutting management issues. As a result, CST relies on ad hoc arrangements that include
assigning administrative tasks to division chiefs. For example, one division head is charged with
coordinating the office’s personnel increase; another handles the office’s recruitment process for
the vacant deputy job.

        CST’s handling of the OIG inspection is illustrative of the problems that it faces in
dealing with cross-cutting management issues. Before the inspection, CST brought back the
former deputy director, now minister counselor at Embassy New Delhi, for three weeks to
coordinate preparations for the inspection. During the inspection itself, the inspectors had to
chase down documents and items relating to basic management issues. The OIG team explained
to the director that the procedures related to the OIG compliance process would require the
creation of an ad hoc staffing/procedural structure to manage the process, as the present
organizational structure is inadequate for the task.

        With the office facing a major expansion in personnel over the next 2 to 3 years, CST
badly needs a structured management support unit in place now to plan for and handle these
issues effectively and to provide the necessary oversight for and supervision of the contractors.

Recommendation 4: The Office of Consular Systems and Technology should establish a
management support unit that incorporates present staff and is headed by a management officer.
(Action: CST)



                                                                  7

    OIG Report No. ISP-I-11-51 – Inspection of the Bureau of Consular Affairs, Office of Consular Systems and Technology – May 2011


                                   SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


Rightsizing

        CST’s current staffing and organizational structure is based on its August 11, 2008,
reorganization plan, in which the ultimate target for staffing was 91 FTEs. CST currently has 68
FTEs authorized (62 Civil Service and 6 Foreign Service). At the time of the inspection, 12 of
these positions were vacant. In its November 18, 2010, memorandum, CST requested and was
granted approval for 19 additional Civil Service FTEs to reach the levels projected in the 2008
reorganization plan. CST also noted that it anticipates requesting an additional 20 FTEs during
the 2012–13 period. During the inspection, the office was in the process of informally allotting
the 19 positions to the individual divisions on the basis of each unit’s perceived needs.

        Based on its own observations, the OIG team agreed on the need for additional staffing to
adequately supervise CST’s complex contracts and large contingent of contractors. However, the
OIG team stressed that the office needed to approach the absorption of such a large number of
new personnel as part of a larger strategic, forward-looking plan. Ideally, such a plan would
encompass a reevaluation of the present organizational structure based on recent experience and
would project a vision of CST’s future needs. In response, CST has advised that it will bring in a
contractor to assist in putting together a draft plan for use of the additional FTEs that is based on
a strategic assessment of the office’s future direction and the lessons learned in the 3 years since
establishing the current organizational structure. The plan envisions using the contractor team
that assisted in the original CST 2007 organizational plan and would specifically look at any
necessary adjustments to current staffing patterns in order to align office resources with new
requirements. The OIG team has endorsed the prompt implementation of CST’s initiative.

Recommendation 5: The Office of Consular Systems and Technology should create and
implement a plan to reevaluate the present organizational structure and personnel needs based on
a strategic assessment of the office’s future direction and lessons learned under the present
organizational framework. (Action: CST)




                                                                  8

    OIG Report No. ISP-I-11-51 – Inspection of the Bureau of Consular Affairs, Office of Consular Systems and Technology – May 2011


                                   SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


Communication and Coordination
Bureau of Consular Affairs

        CST stands at the nexus of everything that CA does, and every part of the bureau praises
CST’s technical expertise and accomplishments. At the same time, however, the interaction
between CST and the business process stakeholders (the other directorates and offices within
CA), is spotty, with frustration on the part of CA business units concerning a lack of a clear
process for communicating and for establishing priorities for the maintenance, development, and
support of automated systems. There is fault on both sides. The business process owners
themselves need to take greater responsibility for establishing these priorities. At the same time,
CST has sometimes made decisions for technical or budgetary reasons without coordinating with
the operators in the field or the business process owners. One such decision seriously affected
billing operations at the National Visa Center and required significant effort to redress.

        Several mechanisms exist in theory to enable CA stakeholders to express their opinions
on the prioritization of CA automation. However, at present, these mechanisms are largely
moribund or very narrowly shaped. Moreover, the CA business units themselves vary
significantly in their ability to focus on IT issues that affect their interests. Although the Office
of Passport Services and the Office of Visa Services have dedicated units to track these matters,
other key players, such as the Office of Overseas Citizens Services, the Office of Fraud
Prevention, and the Office of Executive Services (EX), are less clearly structured and
insufficiently staffed to carry out this critical function. Each element in CA needs this capability
for the correct implementation of the CCR function (see the section on the CCR request process).
However, these offices should not duplicate CST functions, such as systems development.

Recommendation 6: The Bureau of Consular Affairs should require each of its major offices
to designate an individual or small unit to serve as the central liaison for information technology
issues. (Action: CA)

Information Technology Strategy Committee

        In theory, the ITSC is the senior governance and policy-making body for IT-related
issues in CA. The committee is chaired by the bureau principal deputy assistant secretary and is
nominally composed of the three functional deputy assistant secretaries and CA’s office
directors. The committee’s stated tasks and responsibilities include considering all major IT
projects; prioritizing individual project business cases; conducting quarterly reviews as part of its
governance role of projects in progress (including risk, financial, and achievements reviews); and
tracking problems.

       Established in mid-2008, the ITSC was to have met on a quarterly basis. However, the
ITSC met only once in 2010 and only four times in the past 2.5 years. These meetings served
primarily as platforms for the CST director to brief CA principals on CST programs. They did
not involve give and take or reflect any input in establishing bureau-wide IT priorities. No
                                                  9

    OIG Report No. ISP-I-11-51 – Inspection of the Bureau of Consular Affairs, Office of Consular Systems and Technology – May 2011


                                   SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


records of the meetings were kept. It is important that CA revitalize the ITSC with agendas that
engage participation by all CA elements.

        In addition, regular meetings need to be constituted at the operational level that involve
the CST deputy, when that position is filled, and the business unit managing directors. Such
meetings would ensure that the needs of the business units are clearly understood by CST and, in
turn, that the business partners are fully informed of the current state of IT issues of interest to
them.

Recommendation 7: The Bureau of Consular Affairs should hold regular meetings of the
information technology strategy committee to discuss information technology issues and
priorities. Records of the meetings should be maintained and disseminated. (Action: CA)

Recommendation 8: The Bureau of Consular Affairs should convene monthly operational
meetings that are chaired by the deputy director of the Office of Consular Systems and
Technology and attended by the deputies or managing directors of the bureau business units.
(Action: CA)

Data Share Working Group

        The data share working group is another CA-established coordinating body that has fallen
into disuse. It was formed in September 2009 following approval by the bureau’s Assistant
Secretary. Chaired by a senior advisor assigned to CST, the group’s purpose was “to work
closely with CA directorates to coordinate new and ongoing data sharing efforts and to ensure
that CA takes a unified approach to data sharing.” Since its foundation, the group appears to have
met only sporadically and not at all since the senior advisor transferred to another position in
summer 2010. When functioning, the group appears to have facilitated the 2009 and 2010
signings of roughly six memoranda of understanding or agreements with other agencies, notably
with the Federal Bureau of Investigation, Secret Service, and DHS.

       The group appears to have been successful in its narrow focus of promoting data sharing
among agencies. However, there is no reason that the chairmanship of this policy coordinating
group should reside in CST, whose role is to facilitate whatever data sharing is approved by CA.

Recommendation 9: The Bureau of Consular Affairs should revitalize the data share working
group by appointing a new chairperson who reports directly to the Bureau of Consular Affairs’
front office and by institutionalizing the group’s procedures to include regularly scheduled
meetings and reporting. (Action: CA)

Configuration Change Request Process

       CCRs constitute the process by which CST evaluates and assigns requests for specific
changes to existing consular applications or suggestions for new functionality. The current
process by which CCRs are generated, submitted, tracked, evaluated, accepted or rejected,
                                                                 10

    OIG Report No. ISP-I-11-51 – Inspection of the Bureau of Consular Affairs, Office of Consular Systems and Technology – May 2011


                                   SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


assigned, completed, and deployed is essentially ad hoc. The CST configuration management
branch (CM) is responsible for managing this process. CM released a new version of the change
management plan that will take effect on March 1, 2011.

        At present, change requests originate in the field and in CA headquarters. There are
thousands of CCRs now in the system, some of them many years old, which have no disposition.
Requests are submitted to the Helpdesk as trouble tickets and are tracked through the Remedy
software. Some changes come to CST from CA as the result of modifications to laws and
regulations. Others are the result of experience with the current applications or of policy changes
in CA. A request for an enhancement to the consular taskforce software and a decision to move
production of CRBAs to a domestic facility are examples.

        At irregular intervals, CST refers CCRs to the CA offices that control the business
process affected by the CCR. The persons responsible for prioritizing relevant CCRs are often
selected haphazardly. Moreover, the CA offices have no information concerning the costs in time
or money for adopting a given CCR. Once the CCRs are prioritized, CST eventually chairs a
configuration change board to identify those CCRs to be included in the next release of a given
application.

        The new CM procedure is intended to receive, track, and dispose of all CCRs in 90 days
and to report this disposition to the originators. This procedure clarifies the way in which CCRs
should be evaluated as to cost in time and money, impact on the system, and value; however, this
evaluation process is largely internal to CST. Although a version of this process has been in
place for some time, it does not function in actual practice. In fact, the CST director must
approve all but mandated changes. CST policy is to implement minimal changes to legacy
systems in favor of putting all CST resources toward the development of new-generation GVS
and GCS programs. Consequently, few CCRs that do not originate in the CA front office or as a
result of changes in the law or regulations receive serious consideration.

        Even under the new plan, the CCR process is backward. Decisions on the maintenance of
and modifications to automated systems need to be evaluated and prioritized by the affected
business units before being submitted to CST. Before making their recommendations, the
business units need to understand the cost of changes in time and money as well as the
ramifications for existing operations. All CA business units must be kept informed of the status
of all CCRs. This process needs to include an initial review of CCRs from the field in the
affected business units and, for those not rejected at this point, a subsequent review by the
business units after CST has reported on potential cost and impact. A final decision on which
CCRs to approve, the priority in which to address them, and the appropriate application of
development resources can then be made by CA management. All stages of this process must be
transparent.

Recommendation 10: The Bureau of Consular Affairs should revise the change management
process so that it is transparent and incorporates input from relevant Bureau of Consular Affairs
business units. Change configuration requests should be directed for initial review to the office
                                                                 11

    OIG Report No. ISP-I-11-51 – Inspection of the Bureau of Consular Affairs, Office of Consular Systems and Technology – May 2011


                                   SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


or directorate responsible for the affected business process. Requests selected for further
consideration should then be evaluated by the Office of Consular Systems and Technology for
time and cost. The Bureau of Consular Affairs management should make the final decision on
acceptance and prioritization of change configuration requests and return approved requests to
the Office of Consular Systems and Technology for implementation. (Action: CA)

Recommendation 11: The Office of Consular Systems and Technology should report the
disposition of all change configuration requests to the business units and to the field on a regular
and timely basis. (Action: CST)




                                                                 12

    OIG Report No. ISP-I-11-51 – Inspection of the Bureau of Consular Affairs, Office of Consular Systems and Technology – May 2011


                                   SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
Organization

       CST underwent reorganization after the arrival of the present director in 2007. The goal
was to change from an organization that was project focused to one defined more by information
systems functions. The reorganization has not been a complete success in that it has broken down
some ”stovepipes” while, in some cases, making new ones. The names of the divisions and their
responsibilities, broken out later in this section, are obscure to outsiders and even to some within
CST.

         Informal Recommendation 1: The Office of Consular Systems and Technology should
         consider renaming its divisions to make them and their functions more understandable to
         business partners.

Program Management Office

        PMO was created as a result of a 2005 OIG inspection (ISP-CA-05-05) recommendation.
Its purpose was to provide a centralized focus within CST to improve and standardize project
delivery, operational efficiency, and budgetary oversight. The office is currently staffed by 32
contract personnel (the equivalent of 26 FTEs) dealing with the enterprise strategy and
management program and, under a separate contract, a 3-person management support subunit
dealing with financial execution duties and limited internal administrative functions. Currently,
there are no FTE government employees assigned to the office. The Enterprise, Technology,
Architecture, and Process (ETAP) Division director is dual hatted, serving as acting director of
PMO and, in his capacity as the ETAP branch chief, as the COR for the two contracts.

        As originally conceived, PMO was to be at the core of CST operations, providing the
skills and focus for a number of cross-cutting issues focused particularly on enterprise
strategy/planning and standardized program management. In the years after its inception, PMO
did not perform to the expectations of the CST director. Consequently, in June 2010, CST gutted
the original structure, eliminated all of the direct-hire government positions in the unit, and
chartered a contractor to develop a new organizational context and programs to create an
effective entity to support CST operations in enterprise planning and governance and in
enterprise management and project management support.

       In reviewing PMO current operations and its projected responsibilities, the OIG team
supports the new direction that PMO is taking and acknowledges the need to revitalize the PMO
function. However, the OIG team believes that the current projection of PMO responsibilities is
too broad and serves more as a laundry list than as the basis for concrete implementation. The
OIG team urges CST to consider an approach that focuses on the following three areas of
concentration:


                                                                 13

    OIG Report No. ISP-I-11-51 – Inspection of the Bureau of Consular Affairs, Office of Consular Systems and Technology – May 2011


                                   SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


   (1) Enterprise strategy and management: 	Thisarea encompasses the current work program
       now being ably developed by the contractor staff.

   (2) Enhanced institutional budget capacity: 	At present, CST has no central mechanism at the
       office level to bring senior-level budgetary oversight/integration to the office’s programs
       and projects. These tasks are now being handled by the director and division directors in
       an ad hoc fashion. Although the PMO administrative support subunit provides a limited
       technical capability to build on, CST needs a mechanism for senior-level policy input,
       program prioritization, and coordination within the office.

   (3) Centralized point of focus for contract oversight: 	In the Resource Management section of
       this report, the OIG team stresses the need for centralized oversight of office-wide
       procedures and for monitoring of CST’s massive project portfolio. The OIG team
       recommends that the PMO charter be expanded to include that function.

       There are issues relating to the respective roles of CST and CA’s Office of the
Comptroller (CA/C). The CA front office must more clearly delineate the responsibilities of the
two offices. However, given the dimensions and complexities of the contract process, CST
would need an enhanced, centralized contract management process under any regime.

         In discussing PMO’s organizational status with CST staff, there emerged some
uncertainty as to PMO’s eventual place in the CST organizational structure. There was an
informal consensus that the present arrangements could continue, with contractor personnel
staffing the office and the dual-hatted ETAP director and COR providing government oversight.
The OIG team disagrees with such an arrangement. In the OIG team’s view, PMO’s essential
role is to stand apart from the operating divisions and to provide the capacity at the policy level
to deal with cross-cutting program and project issues. Assigning responsibility to one of the
operating division chiefs would seem to negate the purpose of setting up the PMO in the first
place.

Recommendation 12: The Office of Consular Systems and Technology should revise the
current Program Management Office planning documents to create a more concrete action
document and include development of enhanced budgetary and contractual oversight
responsibilities. (Action: CST)

Recommendation 13: The Office of Consular Systems and Technology should reestablish the
Program Management Office as a free-standing division that reports to the Office of Consular
Systems and Technology director and deputy director. (Action: CST)

Recommendation 14: The Office of Consular Systems and Technology should assign to the
Program Management Office an appropriate level of government personnel, including a GS-15­
level director, to provide budgetary and contracting oversight. (Action: CST)



                                                                 14

    OIG Report No. ISP-I-11-51 – Inspection of the Bureau of Consular Affairs, Office of Consular Systems and Technology – May 2011


                                   SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


Liaison Division

         LD nominally has the responsibility to manage CST’s business relationships with end
users, CA stakeholders, and partners within the Department and the U.S. Government. LD’s
most useful role in practice has been in facilitating communication among the divisions within
CST and filling organizational gaps for the director. In this capacity, LD is successful, filling
many functions that, in theory, would belong to a functioning PMO. In the absence of a deputy
director, the acting LD director fulfills some of a deputy’s roles. LD also takes ownership of
“orphan” projects, which are requests from business units in CA or from the field that have no
obvious owner in CST. LD manages such requests, which range from modifications to existing
systems to requests for hardware, until they are accepted by a CST division or their dispositions
are made. LD endeavors to ensure that projects without a clear “owner” are not forgotten. LD
also fills its internal communication role with innovative mechanisms such as its “Spotlight”
series of internal meetings, which focus on a subject of interest to all CST units. A recent
Spotlight focused on a new CCR process. LD is also working to reestablish a CST leadership
team.

        However, LD currently does not succeed in its function with regard to the other elements
of CA. Led by an FSO acting director and staffed by FSOs and other nontechnical specialists,
LD cannot assist stakeholders in developing technical specifications for their requirements. Nor
does it have sufficient understanding of the work of the CST development teams or other
divisions to handle inquiries from stakeholders directly. Instead, LD must request information
from the CST divisions and then convey it to the inquirers. Adding this layer increases the
potential for misinformation. In actual practice, the technical specialists in the CA business units
frequently communicate directly with government technical monitors (GTM) and the lead CST
contractors.

        At best, LD staff participates in information exchanges and coordinates meetings. Given
the LD staff’s lack of technical expertise, the fast pace of the CST divisions’ work, and the
changing requirements of the business units, LD is unlikely to be able to serve satisfactorily as
the single point of contact between CST and the CA business units. For project matters, CST
already has a better model in the current development of the new GVS program, where an
imbedded FSO serves as the primary point of contact for inquiries.

Recommendation 15: The Office of Consular Systems and Technology should revise its
concept of operations so that responsibility for communicating with the Bureau of Consular
Affairs business units is transferred from the Liaison Division to specifically designated
employees in each of the divisions. (Action: CST)

Subject Matter Experts

        CST currently has six Foreign Service positions: three in the liaison division, one as
director of the training branch in the Enterprise Operations Support (EOS) Division, one
assigned to the Enterprise Systems Development (ESD) Division as a subject matter expert, and
                                                                 15

    OIG Report No. ISP-I-11-51 – Inspection of the Bureau of Consular Affairs, Office of Consular Systems and Technology – May 2011


                                   SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


one currently vacant. Previously, the deputy director of CST was also an FSO. Traditionally,
FSOs have provided direct field-user input for the development of consular systems and have
served as intermediaries between the IT technicians and the system users. The value of this user
input is demonstrated by the contributions by both the training branch chief and the subject
matter expert in ESD, who has coordinated the incorporation of field input into GVS
development. Inadequate communication between CST and the CA business units can be
attributed, in part, to the lack of field experience represented in various branches in CST.

       CA users repeatedly noted the value of the subject matter expert in ESD’s development
team in maintaining contact with the Visa Office and the field as GVS was taking form. This is a
team model that will help make GVS a better product and has kept consular users informed about
the progress of GVS development. As recommended elsewhere in this report, this model should
be duplicated in both the GCS development team and with those teams maintaining legacy
systems until both GVS and GCS are deployed.

         CST needs practical field experience to develop its products and strengthen
communication with the CA business units and the users in the field. Expanded use of employees
with overseas experience beyond their current placement in the training branch would provide
valuable field input in both the citizen and noncitizen branches of ESD as well as in the
deployment branch of EOS. In addition, the broader exposure of consular officers to cutting-edge
consular IT programs is important in the creation of a modern officer cadre that is familiar with
the full range of IT functions.

Recommendation 16: The Office of Consular Systems and Technology should enhance the
direct field experience in its units by moving Foreign Service officers and others with overseas
experience to positions within its development and operations divisions. (Action: CST)

Division Functionality

        Some of the responsibilities of each division, particularly those of the technical divisions
discussed later in the report, are still not clear and overlap with one another. For example, both
Enterprise Systems (ES)/Enterprise Engineering and ETAP/Emerging Technologies are tasked
with identifying and testing new technologies to support CST operations. (See the Rightsizing
section of this report.) CST needs to educate the other elements of CA and the consular officers
in general concerning the functions of the various parts of CST. One place to start is the CST
section of the CA Web site, which is out of date and lacks any detailed information about CST’s
structure.

         Informal Recommendation 2: The Office of Consular Systems and Technology should
         update the information on the Bureau of Consular Affairs Web site to include an
         explanation of the responsibilities of each division and branch as well as provide points
         of contact for each branch.



                                                                 16

    OIG Report No. ISP-I-11-51 – Inspection of the Bureau of Consular Affairs, Office of Consular Systems and Technology – May 2011


                                   SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


Enterprise Operations Support

        The EOS Division provides support for CST’s systems deployment, service desk, and
training functions. It also provides CA with facilities coordination services.

Training

        The CST training branch, directed by a midlevel FSO, does an excellent job in providing
training support for all consular systems and applications. Using a variety of methods, including
classroom instruction, online courses, and, recently, Adobe Connect sessions, the unit creates,
updates, and maintains the training materials and provides online instruction through the Foreign
Service Institute and directly in the field. The FSO manager provides useful subject matter
expertise to the training process. The training branch has correctly inserted itself into the early
stages of the SDLC for new systems or major modifications to existing systems, such as GVS
and the consular electronic application center (CEAC). This approach allows the unit to better
understand new or modified procedures and to prepare effective training materials in a timely
fashion.

         The unit maintains a regular schedule of biannual visits to overseas missions to provide
hands-on instruction, with some missions receiving yearly training team visits based on
employee turnover. The training branch has reviewed these schedules and, with improved
distance learning tools, has been able to reduce the number of on-site training visits with
significant cost savings. The training branch also manages an on-site training and demonstration
facility to conduct employee training, to originate Adobe Connect sessions, and to demonstrate
new systems or application modifications. This facility is a useful tool and provides a realistic
environment for evaluating CST products and obtaining feedback from the field.

         Currently, the training branch does not oversee user training at domestic passport
facilities. This training is conducted by the Office of Passport Services. With GCS on the horizon
and the merging of domestic and overseas passport processes, it would be appropriate to bring
passport office user training under the purview of the training branch.

Recommendation 17: The Bureau of Consular Affairs should consolidate all systems training
and user instruction responsibilities under the Enterprise Operations Support branch of the Office
of Consular Systems and Technology. (Action: CA)

Enterprise System Development

        The Enterprise Systems Development (ESD) Division is responsible for constructing and
maintaining the software for the majority of CST systems. ESD works closely with the other
divisions in CST to move projects through the full systems lifecycle from inception to
retirement.



                                                                 17

    OIG Report No. ISP-I-11-51 – Inspection of the Bureau of Consular Affairs, Office of Consular Systems and Technology – May 2011


                                   SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


New System Development

        CST’s primary focus for system development is the next generation of consular
applications, GVS and GCS. These programs will replace multiple older applications and will
streamline the visa and American citizens services processes among their various system users.
GVS development is an area in which cooperation, information sharing, feedback, and
transparency seem to be working well. In terms of the business units, CA has assigned a senior
advisor in the Visa Office whose role includes coordinating the development of GVS from the
business unit side. Within CST, a midlevel FSO in ESD serves as a subject matter expert and
liaison for user development input. Collaboratively, these two officers are ensuring that GVS
will meet policy, IT, and user needs. Examples of that cooperation include conducting twice
weekly working-level meetings between concerned the Office of Visa Services and CST staff
and regularly soliciting input from more than 300 officers and locally employed staff overseas,
as well as from the National Visa and Kentucky Consular Centers. As development progresses,
teleconferences with online conceptual demonstrations are being held with overseas missions. As
the inspectors observed during a teleconference detailing a GVS mock-up with Mexico City,
input from the practitioners is being actively sought as development continues.

       The development of the counterpart GCS application is still in its early stages. However,
the GVS development model, including the appointment of a senior advisor in CA, should be
applied to this new and even more complex system that will engage between the Office of
passport Services and the Office of Overseas Citizens Services.

Recommendation 18: The Bureau of Consular Affairs should appoint a senior advisor to
coordinate the system requirements of passport and overseas American citizens services in the
development of the Global Citizens System. (Action: CA)

Legacy Systems

        Until the implementation of GVS in 2012 and the projected rollout of GCS in 2015,
there are a number of legacy systems that are critical to CA’s current daily operations and that
must be supported and kept up to date until they are subsumed or replaced by the new global
systems. These systems include the Immigrant Visa Information System on the visa side and
passport systems such as the Passport Information Electronic Records System, the Passport
Lookout Tracking System, and the Travel Document Issuance System.

         It is CST’s policy to dedicate the minimum resources necessary to maintain legacy
systems while it presses ahead with the next generation of development. The CA business units
that rely on these existing systems have expressed concern about maintaining support and
making necessary modifications until the new systems are rolled out. A careful balance between
maintaining the old, including modifying them as needed, while developing the new requires
careful coordination between CST and the business units. Policy input into the decision process
is critical, particularly as maintenance and support of these systems is consolidated under a new
contract.
                                                                 18

    OIG Report No. ISP-I-11-51 – Inspection of the Bureau of Consular Affairs, Office of Consular Systems and Technology – May 2011


                                   SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


Enterprise Technology, Architecture, and Process

       The ETAP Division is responsible for developing cross-cutting initiatives aimed at
standardizing and improving CST. Through its three branches—enterprise architecture, process
improvement, and emerging technologies—ETAP identifies new technologies to support CA’s
mission, ensures alignment of systems to business goals, and identifies ways to ensure optimal
delivery of services.

Independent Operations

       The Independent Operations (IO) Division manages four branches: security,
configuration management (CM), independent verification and validation (IV&V), and
independent audit. IO is supposed to serve as an internal check on development projects and
other matters that extend across several divisions within CST. (See the Systems Development
Life Cycle Process section of this report.)

Enterprise Systems

       The Enterprise Systems (ES) Division provides comprehensive hardware and software
support to the CA headquarters workforce and all bureau locations in the United States. Support
services include hardware modernization and support desk services; deployment of biometric
technology; and implementation of major systems migration. The largest component of ES is
data engineering (DE), which handles the CST databases. (See the Oversight of the Consolidated
Consular Database section of this report.)




                                                                19

   OIG Report No. ISP-I-11-51 – Inspection of the Bureau of Consular Affairs, Office of Consular Systems and Technology – May 2011


                                  SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED





                                                             20

OIG Report No. ISP-I-11-51 – Inspection of the Bureau of Consular Affairs, Office of Consular Systems and Technology – May 2011


                               SENSITIVE BUT UNCLASSIFIED
                                         SENSITIVE BUT UNCLASSIFIED


  Information Technology Issues
  Oversight of the Consolidated Consular Database

          The CCD is the backbone of all consular applications and services and supports domestic
  and overseas passport and visa activities. The CCD is the repository for data from all the
  individual consular sections and passport office databases. It uses state-of-the-art technology
  with agile and robust design for scalability and availability. The CCD is accessed by 11,000
  Department users, as well as 19,000 users in other agencies (for example, DHS, Federal Bureau
  of Investigation, and Social Security Administration.). The CCD is the personally identifiable
  data repository for American citizens services, passports, immigrant visas, and nonimmigrant
  visas. Because of the CCD’s importance to national security, ensuring its data integrity,
  availability, and confidentiality is vital.

               CST does not have adequate oversight of CCD operations. (b) (5)
(b) (5)




  (b) (5)




                                                                       21

          OIG Report No. ISP-I-11-51 – Inspection of the Bureau of Consular Affairs, Office of Consular Systems and Technology – May 2011


                                         SENSITIVE BUT UNCLASSIFIED
                                         SENSITIVE BUT UNCLASSIFIED
(b) (5)




                                                                       22

          OIG Report No. ISP-I-11-51 – Inspection of the Bureau of Consular Affairs, Office of Consular Systems and Technology – May 2011


                                         SENSITIVE BUT UNCLASSIFIED
                                     SENSITIVE BUT UNCLASSIFIED

(b) (5)




  Systems Development Life Cycle Process

         The current SDLC process is neither standardized nor practiced consistently across all
  CST divisions. Roles and responsibilities during the life cycle phases are not clearly established,
  and key business units are not involved throughout the process. An SDLC process defines the
  recommended procedure by which systems are envisioned, defined, built, deployed, operated,
  and maintained by an organization. Its goal is to establish a consistent, repeatable, and
  transparent process that can be tailored for use by a variety of project types.

          Some CST divisions and branches, such as ESD and IO, are using some elements of the
  SDLC process; others, such as ES and EOS, do not use any version of SDLC at all. The lack of
  standards has led to misunderstandings of the roles and responsibilities at the different SDLC
  phases and has adversely affected the internal and external communication that should occur
  throughout the process. A recent example is the development of the CRBA system. The
  ownership of development and deployment shifted throughout the process, and the business
  unit’s requirements were not clearly communicated to the development team. As a result, CST
  designed and tested the CRBA for a printer that did not match the printer model identified and
  procured by the business unit. Another example is the Crisis Task Force application, for which
  CST was tasked to enhance its Web-facing interaction. The deployment of this application has
  been challenged by the lack of project ownership and decision controls, as well as by the
                                                                   23

      OIG Report No. ISP-I-11-51 – Inspection of the Bureau of Consular Affairs, Office of Consular Systems and Technology – May 2011


                                     SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


incomplete requirements definition. The use of incorrect scripts that were provided by the CM
group has further delayed the Crisis Task Force application’s deployment.

        The decision control gates within CST’s SDLC process are weak. For example, the DE,
IV&V, and CM groups are not always included in the initial stages of systems planning to ensure
that requirements are indeed in line with CST’s IT baselines. DE owns the design and
architecture of CST’s databases, and its involvement in the initial stages is imperative for
maintaining consistency within databases. IV&V’s participation would ensure that data integrity
and systems functionality are validated prior to the deployment. CM establishes and maintains
the integrity of artifacts such as change requests, source codes, documentation, and standard
operating procedures. With these units not involved throughout the process, CST risks producing
products that do not meet business objectives and that suffer from inaccurate costing and staff
resource projections.

        CM establishes systems change controls and maintains the integrity of the artifacts
repository. The OIG team identified that, although the CM version control process exists, it is
dysfunctional. The current SDLC process does integrate CM into all control gates in the process;
however, CST personnel were not able to confirm that all system changes and modifications
have gone through the CM process with the appropriate documentation added to the repository.
Furthermore, the CM process has been challenged by inconsistent development environments
managed and operated at the contractor sites, which has added unnecessary steps to the
development and testing stages and created issues with version control. CST has recognized this
as an issue and has begun working on the implementation of an enterprise development
environment with version control.

        Another challenge for CM is the frequent requests for emergency releases within CST.
Because of the quick turnaround and urgency of these requests, projects may not go through all
the appropriate steps—specifically IV&V and CM reviews. CST management informed the OIG
team that there is no clearly enforced procedure to ensure that emergency projects are subjected
to these reviews.

        There also seems to be no clear guidance on what initiatives should or should not be
taken through the SDLC process, which has caused confusion among management and staff
regarding their requirements and responsibilities for each project. CST staff members mentioned
to the OIG team that certain initiatives seem to go through the SDLC process and others do not,
without any particular rationale for these decisions.

       CST division managers have stated that the current SDLC process is a work in progress.
As such, it does not detail the needed decision control gates or the required systems
documentation at this time. Staff members within the process improvement branch are currently
working on revising the existing SDLC process in coordination with all key players in CST.
These staff members have made several presentations to CST personnel regarding the changes
needed and those scheduled to be made to the process, and all division directors have

                                                                24

   OIG Report No. ISP-I-11-51 – Inspection of the Bureau of Consular Affairs, Office of Consular Systems and Technology – May 2011


                                  SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


acknowledged their intent to use the SDLC for all future projects. However, firm executive
enforcement is necessary for the successful and consistent implementation of the SDLC process.

Recommendation 26: The Office of Consular Systems and Technology should complete and
implement the systems development life cycle process to include, at a minimum, the
identification of the appropriate divisions involved, the defined roles and responsibilities, and the
deliverables at each control gate in the process. (Action: CST)

Recommendation 27: The Office of Consular Systems and Technology should establish and
enforce a policy for managing emergency releases that outlines the time period for completing
required deliverables after an emergency is concluded. (Action: CST)

Recommendation 28: The Office of Consular Systems and Technology should establish and
mandate a policy for the systems development life cycle process to be used by all divisions for
the development and deployment of all systems and applications. (Action: CST)

Direct Shipment of Servers

        CST identified a new direct shipment program to cut costs and expedite server shipments
to missions overseas. The intent of this program is to load servers up front with the Bureau of
Diplomatic Security’s security templates and CST-specific software to enable missions to use the
servers immediately. This process eliminates the need for installation teams. CST has identified
60 missions to participate in this program. CST division directors advised that this direct
shipment program currently is not in full effect due to the lack of approval by DS and the Office
of Acquisitions (A/LM/AQM). As a result, the larger effort of configuring and installing the DS
security guide template is conducted remotely by DE after the server arrives at the mission.

Recommendation 29: The Bureau of Consular Affairs should seek prompt approval from the
Bureau of Diplomatic Security and the Bureau of Administration for shipping servers with the
appropriate security templates uploaded directly from vendors to overseas missions. (Action:
CA, in coordination with DS and A)

Bureau of Information Resource Management

       The Bureau of Information Resource Management (IRM) is the lead office for automated
systems in the Department. This office is responsible for establishing systems standards and
coordinating among the various bureaus and offices in the Department. IRM also “owns the
highway” in that it is responsible for providing the basic IT and communications infrastructure
upon which CA-automated systems operate. Relations between IRM and CST rest on a formal
memorandum of understanding signed in 2008 and modified several times since.

        There are some working-level meetings in place to ensure that the Department’s
infrastructure can deal with current CST developments. However, there is a lack of higher-level
coordination and planning, exemplified by a paucity of regular office-director-level meetings.
                                                                 25

    OIG Report No. ISP-I-11-51 – Inspection of the Bureau of Consular Affairs, Office of Consular Systems and Technology – May 2011


                                   SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


Thus, there is no way to ensure that the principal supplier of infrastructure and its largest client
understand where each other is headed and what the needs and capabilities of each will be in the
coming months and years.

Recommendation 30: The Bureau of Information Resource Management, in coordination with
the Bureau of Consular Affairs, should reestablish monthly coordination meetings between the
bureau’s chief information officer and the Office of Consular Systems and Technology’s
director. (Action: IRM, in coordination with CA)




                                                                 26

    OIG Report No. ISP-I-11-51 – Inspection of the Bureau of Consular Affairs, Office of Consular Systems and Technology – May 2011


                                   SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


Resource Management

        CST is composed of 68 FTE positions: 62 Civil Service, 6 Foreign Service, and over 850
contractors operating under nearly 30 different contracts. Vacancies and turnover have been
long-standing issues in CST. The deputy director position has been vacant for 18 months, and in
the past 5 years, all but one of CST’s GS-15 employees have retired or moved on to other jobs.
At the time of the inspection, 12 positions were vacant, primarily in the PMO and Liaison
Divisions (3 Civil Service FTEs in each). In FY 2010, CST’s annual operating budget was
approximately $266 million (of which approximately $226 million was obligated for contracts).
CA/C has direct responsibility for CST funding.

Contracts and Procurement

        Given the scale of the contracts CST handles and the number of contractors involved, it
appears that the basic business of CST is contract management. The smooth functioning of every
part of the office depends on its contractors. The director is keenly aware of the need for careful
oversight of the contracts. Notable is his chairing of the monthly independent performance
reviews of each major contract, which CST should be commended for implementing. However,
when the director left the country during the inspection, the independent performance reviews
were cancelled. The OIG team believes that CST should continue the meetings, led at the
division director level, in the absence of the office director.

         Informal Recommendation 3: The Office of Consular Systems and Technology should
         proceed with monthly independent performance reviews that are chaired by the
         appropriate division chief during absences of the director.

        Relations between CST and A/LM/AQM, while functional, have frequently been
troubled. CST would like to receive contracting advice from A/LM/AQM earlier in the process
to reduce some of the waiting time when questions arise later. On the other hand, A/LM/AQM
would like CST to involve them earlier in the presolicitation process when there is a requirement.
The OIG team believes that CST should have contract expertise within its office in an oversight
role and agrees that it should be a function of PMO. (See also the Program Management Office
section in this report.)

         Informal Recommendation 4: The Office of Consular Systems and Technology should
         work with the Office of Acquisitions to establish a contract timeline to facilitate better
         and earlier coordination when establishing or significantly modifying contracts.

       One major contracting issue that various parties raised was the shifting of tasks from one
contractor to another without following proper contract modification procedures. Upon learning
of one case, A/LM/AQM advised CST that it would have to go through proper channels and
request a modification to the contract, as only the contracting officer is authorized to modify a
contract. Unauthorized changes also have legal and financial ramifications.

                                                                 27

    OIG Report No. ISP-I-11-51 – Inspection of the Bureau of Consular Affairs, Office of Consular Systems and Technology – May 2011


                                   SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


Recommendation 31: The Office of Consular Systems and Technology should establish and
implement internal procedures to enforce the use of appropriate regulations and guidelines for
submitting contract modifications to the Office of Acquisitions on a timely basis. (Action: CST)

        CST has developed standard procedures for budgeting and procurement in the office.
These procedures define the relationship between PMO and CST government personnel with
significant procurement responsibilities as well as A/LM/AQM’s role in the process. The
standard operations procedures were designed to be consistent with the Foreign Affairs
Handbook regulation 14 FAH-2, Contracting Officer’s Representative Handbook, and 14 FAM
200, Acquisitions. These procedures are used in the acquisition of domestic goods and services
exceeding $150,000 (the simplified acquisition threshold) and do not address CA/C’s role in the
process.

       As noted earlier, CA/C’s role in CA’s procurement function has not yet been clarified.
Although CA/C has a procurement policy and oversight division, there appears to be confusion
among CST, A/LM/AQM, and CA/EX regarding CA/C’s role, which sometimes results in
duplication of effort and delays in the process. The OIG team pointed out to CA management the
need for better delineation of the roles of these offices.

        Informal Recommendation 5: The Bureau of Consular Affairs should more clearly
        delineate the appropriate roles of its business offices within the bureau and their
        interaction with the Office of Acquisitions with respect to contracting and procurement
        functions.

Contracting Officer’s Representatives/Government Technical Monitors

        The OIG team found several COR/GTM employees who did not provide written
documentation of their designations upon request, although some provided proof that they had
sent a request to A/LM/AQM but had not received a response. The COR is officially designated
when the contract is awarded and the designation memorandum is provided to the COR.
However, if the COR/GTM changes at a later date, it is up to CST to send a request to
A/LM/AQM to change the designation The COR/GTM designation memoranda specify the
scope of their authority, duties, responsibilities, and prohibitions. In addition, if the COR/GTM
were designated after January 1, 2007, the memorandum also indicates that all training
requirements have been met. However, CST does not have a centralized process for managing
COR/GTM designations and training requirements. The OIG team believe that PMO should
perform this function.

Recommendation 32: The Office of Consular Systems and Technology should develop a
procedure to centralize the coordination of contracting officer representative and government
technical monitor designations, including the management of training requirements. (Action:
CST)



                                                                28

   OIG Report No. ISP-I-11-51 – Inspection of the Bureau of Consular Affairs, Office of Consular Systems and Technology – May 2011


                                  SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


        In addition to managing COR/GTM designations, CST would benefit from having a
central repository for contract files. CST was in the process of addressing this issue during the
inspection. (See also the Management Support Unit section of this report.)

     Given the frequent turnover of COR/GTM personnel in CST, refresher training in
COR/GTM responsibilities would be useful for CST staff serving in this role.

         Informal Recommendation 6: The Office of Consular Systems and Technology, through
         its Program Management Office, should arrange with the Bureau of Administration,
         Office of the Procurement Executive, or the Foreign Service Institute for on-site refresher
         training of its contracting officer representatives and government technical monitors.

Budget

        In FY 2010, CST’s overall funding was approximately $266 million (with approximately
$226 million obligated for contracts). CST is funded by machine readable visa fees, not
congressional funding. CA/C has direct responsibility for CST funding. The director and division
chiefs are engaged in the budget process in CST. Each division prepares input for CST’s
submission to the Bureau Strategic and Resource Plan, and PMO serves as the centralized point
to pull everything together. Project budget justifications for each contract tie into the budget
planning process. One of CST’s goals is to align project budget justifications with the Office of
Management and Budget 300 reporting process, which standardizes IT resource management.

        The OIG team found no budgeting issues in CST other than uncertainty about the full
funding level for the current fiscal year as the government continues to operate under a
continuing resolution. At the time of the inspection, CST had received only one continuing
resolution allotment of $24 million.

       A review of the requisition process, managed by a three-person administrative support
subunit under PMO, found that it is performed well and in accordance with Department
procedures. A sample review of invoices found them to be processed in a timely manner.

Inventory

        As part of its administrative and program property responsibility for CA, the accountable
property officer for the bureau serves in CA/EX and delegates the physical control of property as
well as property management functions to CA’s directorates, offices, passport agencies, and visa
centers. Each of these areas is assigned an area custodial officer. CA has property at 69 locations,
with more than 26,000 line items valued at more than $94 million. These assets are bar coded
and tracked in the Integrated Logistics Management System, managed by the Bureau of
Administration, Office of Logistics Management. Approximately 92 percent of the line items are
IT assets procured and held by CST and are valued at more than $91 million. CST’s asset
management group is in EOS.

                                                                 29

    OIG Report No. ISP-I-11-51 – Inspection of the Bureau of Consular Affairs, Office of Consular Systems and Technology – May 2011


                                   SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


        The OIG team found the working relationship between CST and CA/EX to be good.
Several years ago, CST’s inventory reported as missing 19 items valued at more than $5,000,
resulting in CA’s further review by the Department’s Property Survey Board. Upon further
examination, many of the items were located and the issue was resolved. Subsequent reports
have shown that CST’s inventory process has improved to include a two-person inventory
scanning procedure. As a result, the most recently concluded reconciliation report identified
approximately $160,000 of equipment missing from the $97 million inventory, which is well
below the acceptable 1 percent discrepancy requirement.

Equal Employment Opportunity

      In discussion with CA/CST staff, the OIG team did not find any specific Equal
Employment Opportunity issues. CST does not have a designated Equal Employment
Opportunity counselor, but the director indicated that he intended to designate one.




                                                                30

   OIG Report No. ISP-I-11-51 – Inspection of the Bureau of Consular Affairs, Office of Consular Systems and Technology – May 2011


                                  SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED

Management Controls
Access Controls

        The OIG team reviewed access controls processes for system and database administrators
and found areas that need to be strengthened. For example, when the OIG team requested a list
of system and database administrators from CST management, it was provided only after a
significant time lapse. This delay underscores the need for CST to centralize the management of
its access controls. Further, upon examination, the OIG team found that the master system
administrator list was incomplete, with missing fields such as specific areas of responsibility and
security clearance levels for users. Additionally, the OIG team found issues with the access
forms used for granting access to staff. While reviewing a sample of these access forms, the OIG
team identified that they do not reflect the current organizational structure. The access forms also
do not include signature lines for CST management’s review and approval, such as that of the
information systems security officer. Moreover, the form does not itemize the various
administrative roles, including CCD DBAs. Using the incomplete access forms could leave
CST’s systems vulnerable to inappropriate access by unauthorized individuals.

        (b) (5)




Recommendation 33: The Office of Consular Systems and Technology should institute policies
and procedures for assigning and tracking administrative user accounts and for validating the
need for assigned individuals to have such privileges on an annual basis or when changes occur.
(Action: CST)

Recommendation 34: The Office of Consular Systems and Technology should revise and
standardize the account access form to reflect the current organizational structure and include the
requirement for security management review and approval. (Action: CST)

Contracts

       As noted previously, the complexity and scale of contracts that CST manages present
challenges for the entire contract process, from procurement to oversight. There are more than
850 contractors operating under nearly 30 different contracts. In FY 2010 approximately $226
million was obligated for contract funding. Yet, at present, there is no mechanism for
periodically auditing these contracts.

Recommendation 35: The Bureau of Consular Affairs, in coordination with the Bureau of
Administration, should establish a standard procedure for conducting periodic independent audits
of the Office of Consular Systems and Technology contracts. (Action: CA, in coordination with
A)

                                                                 31

    OIG Report No. ISP-I-11-51 – Inspection of the Bureau of Consular Affairs, Office of Consular Systems and Technology – May 2011


                                   SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


Security

       The chief of the IO Division serves as the information systems security officer for CST.
(See the sections on SDLC and CCD for a discussion of security-related issues.)




                                                                32

   OIG Report No. ISP-I-11-51 – Inspection of the Bureau of Consular Affairs, Office of Consular Systems and Technology – May 2011


                                  SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


List of Recommendations 

Recommendation 1: The Bureau of Consular Affairs should design and implement a plan to
monitor, on a continuing basis, the work environment in the Office of Consular Systems and
Technology and take corrective action as necessary. (Action: CA)

Recommendation 2: The Bureau of Consular Affairs should hold quarterly performance
reviews with the director of the Office of Consular Systems and Technology, using the bureau’s
Consular Leadership Tenets as a template. (Action: CA)

Recommendation 3: The Bureau of Consular Affairs should promptly fill the deputy director
position in the Office of Consular Systems and Technology. (Action: CA)

Recommendation 4: The Office of Consular Systems and Technology should establish a
management support unit that incorporates present staff and is headed by a management officer.
(Action: CST)

Recommendation 5: The Office of Consular Systems and Technology should create and
implement a plan to reevaluate the present organizational structure and personnel needs based on
a strategic assessment of the office’s future direction and lessons learned under the present
organizational framework. (Action: CST)

Recommendation 6: The Bureau of Consular Affairs should require each of its major offices
to designate an individual or small unit to serve as the central liaison for information technology
issues. (Action: CA)

Recommendation 7: The Bureau of Consular Affairs should hold regular meetings of the
information technology strategy committee to discuss information technology issues and
priorities. Records of the meetings should be maintained and disseminated. (Action: CA)

Recommendation 8: The Bureau of Consular Affairs should convene monthly operational
meetings that are chaired by the deputy director of the Office of Consular Systems and
Technology and attended by the deputies or managing directors of the bureau business units.
(Action: CA)

Recommendation 9: The Bureau of Consular Affairs should revitalize the data share working
group by appointing a new chairperson who reports directly to the Bureau of Consular Affairs’
front office and by institutionalizing the group’s procedures to include regularly scheduled
meetings and reporting. (Action: CA)

Recommendation 10: The Bureau of Consular Affairs should revise the change management
process so that it is transparent and incorporates input from relevant Bureau of Consular Affairs
business units. Change configuration requests should be directed for initial review to the office
or directorate responsible for the affected business process. Requests selected for further
consideration should then be evaluated by the Office of Consular Systems and Technology for
                                                  33

    OIG Report No. ISP-I-11-51 – Inspection of the Bureau of Consular Affairs, Office of Consular Systems and Technology – May 2011


                                   SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


time and cost. The Bureau of Consular Affairs management should make the final decision on
acceptance and prioritization of change configuration requests and return approved requests to
the Office of Consular Systems and Technology for implementation. (Action: CA)

Recommendation 11: The Office of Consular Systems and Technology should report the
disposition of all change configuration requests to the business units and to the field on a regular
and timely basis. (Action: CST)

Recommendation 12: The Office of Consular Systems and Technology should revise the
current Program Management Office planning documents to create a more concrete action
document and include development of enhanced budgetary and contractual oversight
responsibilities. (Action: CST)

Recommendation 13: The Office of Consular Systems and Technology should reestablish the
Program Management Office as a free-standing division that reports to the Office of Consular
Systems and Technology director and deputy director. (Action: CST)

Recommendation 14: The Office of Consular Systems and Technology should assign to the
Program Management Office an appropriate level of government personnel, including a GS-15­
level director, to provide budgetary and contracting oversight. (Action: CST)

Recommendation 15: The Office of Consular Systems and Technology should revise its
concept of operations so that responsibility for communicating with the Bureau of Consular
Affairs business units is transferred from the Liaison Division to specifically designated
employees in each of the divisions. (Action: CST)

Recommendation 16: The Office of Consular Systems and Technology should enhance the
direct field experience in its units by moving Foreign Service officers and others with overseas
experience to positions within its development and operations divisions. (Action: CST)

Recommendation 17: The Bureau of Consular Affairs should consolidate all systems training
and user instruction responsibilities under the Enterprise Operations Support branch of the Office
of Consular Systems and Technology. (Action: CA)

Recommendation 18: The Bureau of Consular Affairs should appoint a senior advisor to
coordinate the system requirements of passport and overseas American citizens services in the
development of the Global Citizens System. (Action: CA)

Recommendation 19: (b) (5)




                                                                 34

    OIG Report No. ISP-I-11-51 – Inspection of the Bureau of Consular Affairs, Office of Consular Systems and Technology – May 2011


                                   SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED

Recommendation 20: (b) (5)



Recommendation 21: (b) (5)




Recommendation 22: (b) (5)



Recommendation 23: (b) (5)


Recommendation 24: (b) (5)




Recommendation 25: (b) (5)



Recommendation 26: The Office of Consular Systems and Technology should complete and
implement the systems development life cycle process to include, at a minimum, the
identification of the appropriate divisions involved, the defined roles and responsibilities, and the
deliverables at each control gate in the process. (Action: CST)

Recommendation 27: The Office of Consular Systems and Technology should establish and
enforce a policy for managing emergency releases that outlines the time period for completing
required deliverables after an emergency is concluded. (Action: CST)

Recommendation 28: The Office of Consular Systems and Technology should establish and
mandate a policy for the systems development life cycle process to be used by all divisions for
the development and deployment of all systems and applications. (Action: CST)

Recommendation 29: The Bureau of Consular Affairs should seek prompt approval from the
Bureau of Diplomatic Security and the Bureau of Administration for shipping servers with the
appropriate security templates uploaded directly from vendors to overseas missions. (Action:
CA, in coordination with DS and A)



                                                                 35

    OIG Report No. ISP-I-11-51 – Inspection of the Bureau of Consular Affairs, Office of Consular Systems and Technology – May 2011


                                   SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


Recommendation 30: The Bureau of Information Resource Management, in coordination with
the Bureau of Consular Affairs, should reestablish monthly coordination meetings between the
bureau’s chief information officer and the Office of Consular Systems and Technology’s
director. (Action: IRM, in coordination with CA)

Recommendation 31: The Office of Consular Systems and Technology should establish and
implement internal procedures to enforce the use of appropriate regulations and guidelines for
submitting contract modifications to the Office of Acquisitions on a timely basis. (Action: CST)

Recommendation 32: The Office of Consular Systems and Technology should develop a
procedure to centralize the coordination of contracting officer representative and government
technical monitor designations, including the management of training requirements. (Action:
CST)

Recommendation 33: The Office of Consular Systems and Technology should institute
policies and procedures for assigning and tracking administrative user accounts and for
validating the need for assigned individuals to have such privileges on an annual basis or when
changes occur. (Action: CST)

Recommendation 34: The Office of Consular Systems and Technology should revise and
standardize the account access form to reflect the current organizational structure and include the
requirement for security management review and approval. (Action: CST)

Recommendation 35: The Bureau of Consular Affairs, in coordination with the Bureau of
Administration, should establish a standard procedure for conducting periodic independent audits
of the Office of Consular Systems and Technology contracts. (Action: CA, in coordination with
A)




                                                                 36

    OIG Report No. ISP-I-11-51 – Inspection of the Bureau of Consular Affairs, Office of Consular Systems and Technology – May 2011


                                   SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: The Office of Consular Systems and Technology should
consider renaming its divisions to make them and their functions more understandable to
business partners.

Informal Recommendation 2: The Office of Consular Systems and Technology should update
the information on the Bureau of Consular Affairs Web site to include an explanation of the
responsibilities of each division and branch as well as provide points of contact for each branch.

Informal Recommendation 3: The Office of Consular Systems and Technology should
proceed with monthly independent performance reviews that are chaired by the appropriate
division chief during absences of the director.

Informal Recommendation 4: The Office of Consular Systems and Technology should work
with the Office of Acquisitions to establish a contract timeline to facilitate better and earlier
coordination when establishing or significantly modifying contracts.

Informal Recommendation 5: The Bureau of Consular Affairs should more clearly delineate
the appropriate roles of its business offices within the bureau and their interaction with the Office
of Acquisitions with respect to contracting and procurement functions.

Informal Recommendation 6: The Office of Consular Systems and Technology, through its
Program Management Office, should arrange with the Bureau of Administration, Office of the
Procurement Executive, or the Foreign Service Institute for on-site refresher training of its
contracting officer representatives and government technical monitors.




                                                                 37

    OIG Report No. ISP-I-11-51 – Inspection of the Bureau of Consular Affairs, Office of Consular Systems and Technology – May 2011


                                   SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED





                                                             38

OIG Report No. ISP-I-11-51 – Inspection of the Bureau of Consular Affairs, Office of Consular Systems and Technology – May 2011


                               SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

Principal Officials

                                                                                                 Name               Arrival Date
Assistant Secretary                                                                    Janice L. Jacobs                    06/08
Principal Deputy Assistant Secretary                                                  Michael D. Kirby                     06/08
Director, CST                                                                               Kirit Amin                     06/07
Chiefs of Divisions:
   Liaison Division                                                   James L. Strudwick (Acting)                               9/07
   Program Management Office                                                 John Atkins (Acting)                              07/10
   Enterprise Operations Support                                                   Michael Doctor                              07/10
   Enterprise Systems                                                                Haar Sandhu                                4/08
   Enterprise Systems Development                                                   Gene Shuman                                 1/09
   Enterprise Technology Architecture
   and Process                                                                                John Atkins                      10/04
Independent Operations                                                                         Don Lyles                        8/09




                                                                39

   OIG Report No. ISP-I-11-51 – Inspection of the Bureau of Consular Affairs, Office of Consular Systems and Technology – May 2011


                                  SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED





                                                             40

OIG Report No. ISP-I-11-51 – Inspection of the Bureau of Consular Affairs, Office of Consular Systems and Technology – May 2011


                               SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

Abbreviations
A/LM/AQM                              Office of Acquisitions
CA                                    Bureau of Consular Affairs
CA/C                                  Bureau of Consular Affairs, Office of the Comptroller
CA/EX                                 Bureau of Consular Affairs, Office of Executive Services
CCD                                   Consolidated Consular Database
CCR                                   Change configuration request
CM                                    Configuration management (branch)
COR                                   Contracting officer representative
CRBA                                  Consular report of birth abroad (of an American citizen)
CST                                   Office of Consular Systems and Technology
DBA                                   Database administrators
DE                                    Data engineering (group)
DHS                                   Department of Homeland Security
EOS                                   Enterprise Operations Support (Division)
ES                                    Enterprise Systems (Division)
ESD                                   Enterprise Systems Development (Division)
ETAP                                  Enterprise, Technology, Architecture, and Process (Division)
FAH                                   Foreign Affairs Handbook
FAM                                   Foreign Affairs Manual
FSO                                   Foreign Service Officer
FTE                                   Full-time equivalent
GCS                                   Global Citizen System
GTM                                   Government technical monitors
GVS                                   Global Visa System
IO                                    Independent Operations (Division)
IRM                                   Bureau of Information Management
IT                                    Information technology
ITSC                                  Information technology strategy committee (CA)
LD                                    Liaison Division
OIG                                   Office of Inspector General
PMO                                   Project Management Office
SDLC                                  Systems develpment life cycle




                                                               41

  OIG Report No. ISP-I-11-51 – Inspection of the Bureau of Consular Affairs, Office of Consular Systems and Technology – May 2011


                                 SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED





                                                             42

OIG Report No. ISP-I-11-51 – Inspection of the Bureau of Consular Affairs, Office of Consular Systems and Technology – May 2011


                               SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED


Appendix 1: CST Organizational Chart

                                                                -




                                                               43

  OIG Report No. ISP-I-11-51 – Inspection of the Bureau of Consular Affairs, Office of Consular Systems and Technology – May 2011


                                 SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED





                                                             44

OIG Report No. ISP-I-11-51 – Inspection of the Bureau of Consular Affairs, Office of Consular Systems and Technology – May 2011


                               SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

Appendix 2: CST Divisions – Summary of Roles and
Responsibilities


                CST Division                                         Division Responsibilities
           Enterprise Technology,                 • Process Improvement
          Architecture, and Process
               (ETAP) Division                    • Biometric technologies--Facial Recognition, Iris Recognition
                                                  • Enterprise Architecture and Governance
            Enterprise Operations                 • User Training
            Support (EOS) Division
                                                  • Systems Deployment
                                                  • Service Desk (tier I, II)
        Independent Operations (IO) • IV&V
                 Division
                                                  • Security
                                                  • Configuration Management
                                                  • Auditing
           Enterprise Systems (ES)                • Enterprise infrastructure and connectivity—Electronic Diversity
                   Division                         Visa (eDV)
                                                  • Database management/engineering--Consular Consolidated
                                                    Database
                                                  • Cross-System Initiatives—CLASS, Thin Client, EQM

           Enterprise Systems                       Software development for:
        Development (ESD) Division • Citizen Services—TDIS, ACS, GCS
                                                  • Non-Citizen Services—NIV, IVO, IVIS, DVIS, GVS
                                                  • Management Systems & Public-Facing Systems—CEAC, BI,
                                                    Travel.State.gov
             Program Management                           Internal service provider to CST, supporting:
                 Office (PMO)                     • Enterprise planning and governance
                                                  • Program management oversight
                                                  • Project management support
             Liaison Division (LD)                   Information coordination with stakeholders—CA, CST
                                                         Clients, System Users, Partner USG agencies



                                                               45

  OIG Report No. ISP-I-11-51 – Inspection of the Bureau of Consular Affairs, Office of Consular Systems and Technology – May 2011


                                 SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED





                                                             46

OIG Report No. ISP-I-11-51 – Inspection of the Bureau of Consular Affairs, Office of Consular Systems and Technology – May 2011


                               SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED





SENSITIVE BUT UNCLASSIFIED

FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
              of Federal programs
         and resources hurts everyone.

       Call the Office of Inspector General
                    HOTLINE
                   202-647-3320
                or 1-800-409-9926
         or e-mail oighotline@state.gov
      to report illegal or wasteful activities.

              You may also write to
           Office of Inspector General
            U.S. Department of State
              Post Office Box 9778
              Arlington, VA 22219
           Please visit our Web site at:
               http://oig.state.gov

        Cables to the Inspector General
       should be slugged “OIG Channel”
           to ensure confidentiality.
